i

Supreme Court, U.S.
FILED

<50-"7/S'

NOV 1 6 2020
<

No.

OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

CTi6R«l A - H-efc I

- PETITIONER

(Your Name)
VS.

-

RESPONDENT (S)

ON PETITION FOR A WRIT OF CERTIORARI TO

0>urf

fce-StKt£ Cf\coTT•

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR A WRIT OF CERTIORARI

(Your Name)

j/cQuy&vx OiMz—
(Address)

cf/^W

/

iyih

‘SS'/cj ■

(City, State, Zip Code)

(Phone Number)

ORIGINAL i

QUESTION(S) PRESENTED
1) Whether I am entitled to get the missing records from my trial In Medina
County, Ohio for statements made by the judge outside the hearing of the
jury? Transcript March 2. 2017:742-743. Transcript March 3. 2017:752after.
2) Whether I am entitled to get the missing record on Dec 2. 2016 when the
lawyer refused to comply with the judge's order for resulting a motion Sept
9. 2016?
3) Whether the police officer's testimony varied from their written reports
significantly, causing confusion for the jury, and therefore my conviction?
4) Whether I was entitled to know, and agree to a jury trial? My attorney set
my case for a jury trial without my authorization.
5) Whether the prosecutor was constitutionally obligated to dismiss the
charge of felonious assault due to lack of evidence? ,
6) Whether the police officers were justified in following me and what the
reason was for them to pull me over and put me under arrest?
7) Whether I can contest the initial coercion and false accusation of two
counts that I am innocent of on March 6th, 2016?

LIST OF PARTIES

MAll parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page.
A list of all parties to the proceeding in the court whose judgment is the
subject of this petition is as follows:

RELATED CASES

s , Stitt;

o

O'rCcJn

I
(G

'

V
;

TABLE OF CONTENTS
Pages
TABLE OF CONTENTS

1

TABLE OF AUTHORITIES

11

EXPLANATION WHY THIS CASE RAISES A SUBSTANTIAL
UNITED STATES CONSTITUTIONAL ISSUES................. ........

1

LAW-AND-ARGUMENT

2,5

Proposition of Law 1: Hersi was deprived effective assistance of appellate
counsel in violation of the Sixth Amendment to the United States
Constitution when appellate counsel failed to raise: “Hersi’s Due Process
rights under the Fourteenth Amendment to the United States Constitution
were violated when the indictment failed to specify which of the two
instances of Hersi’s alleged swerving constituted the basis for the felonious
2
assault charge.”
Proposition of Law 2: Hersi was deprived effective assistance of appellate
counsel in violation of the Sixth Amendment to the United States
Constitution when appellate counsel failed to raise: “Hersi’s felonious
assault conviction was obtained in violation of the Due Process Clause of
the Fourteenth Amendment to the United States Constitution because the
State of Ohio failed to produce sufficient evidence that Hersi ‘caused or
attempted to cause serious physical harm’ to Trooper Melicant or Officer
5
Bell.”
CONCLUSION

10

CERTIFICATE OF SERVICE

11

Appendix: May 24, 2018 Journal Entry

l

r

TABLE OF AUTHORITIES
Pages
Burks v. United States, 437 U.S. 1...............................................................
Caver v. Straub, 349 F.3d 340 .....................................................................
Eagle v. Linahan, 279 F.3d 926...................................................................
Howard v. Bouchard, 405 F.3d 459.............................................................
In re Winship, 397 U.S. 358, 364, 90 S. Ct. 1068, 25 L. Ed. 2d 368...........
Ivory v. Jackson, 509 F.3d 284.....................................................................
Jackson v. Virginia, 443 U.S. 307, 319, 99 S. Ct. 2781, 61 L. Ed. 2d 560...
Jalowiec v. Bradshaw, 657 F.3d 293 ...........................................................
Scott v. Harris, 550 U.S. 372, 127 S. Ct. 1769, 167 L. Ed. 2d 686 ..............
Smith v. Robbins, 528 259, 120 S. Ct. 746, 145 L. Ed. 2d 756.....................
State exrel. Schneider v. Kreiner, 83 Ohio St.3d 203, 699 N.E.2d 83.........
State v. Jackson, 8th Dist. Cuyahoga No. 95920, 2011-Ohio-5920 .............
State v. Kareski, 137 Ohio St.3d 92, 2013-0hio-4008..................................
State v. Williams, 10th Dist. Franklin No. 03AP-1214, 2004-0hio-6123....
Strickland v. Washington, 466 U.S. 668, 104 S. Ct. 2052, 80 L. Ed. 2d 674
United States v. Luciano, 329 F.3d 1............................................................

9
3,6
3,6
3,6
6
3,6
7

3,6
2,7

3,6
4

9
1
passim

RULES AND STATUTES
App. R. 26(B)........
R.C. 2903.11(A)(2)

2
7

CONSTITUIONAL PROVISIONS
Due Process rights under the Fourteenth Amendment to the United States Constitution .. 2
Sixth Amendment to the United States Constitution
passim

n

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.

-OPINIONS BELOW-

[ ] For cases from federal courts:
The opinion of the United states court of appeals appears at
Appendix &_to the petition and is
^JXffeportedon
/O - 1- 9<Oc)~0
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished
The opinion of the United States district court appears at Appendix
to the petition and is
^_J^-ffeported on
3 / <3 ° l°i r
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
fKSMfT *WShM/fcu>
.
: X ;iv court appears at Appendix
The opinion of the ' r '** ' i .
Y\o
to the petition and is
reported on_________
___ ; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the CpofT'
Ni^rCT^tCi&(
court
appears at Appendix £ to the petition and is
or,
^J^feported on
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

IA

JURISDICTION
[ ] For cases from federal courts:

The date which the United States Court Appeals decided my case was

&(tfoLzr-lb -

d^p «•

] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:____________
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file a petition for a writ of certiorari was granted
to an including_____
(date) on
m
Application No.___ A
The jurisdiction of this Court is invoked under 28 U. S. C. & 1254(1)
[ ] For cases from state courts:
The date on which the highest state court decided my case was
1$ • . A copy of that decision appears at Appendix

£> ..

[ ] A timely petition for rehearing denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
A timely petition for rehearing was thereafter denied on the following
date:
and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was
granted to an including
(date) on
in Application No.___ A
The jurisdiction of this Court is invoked under 28 U. S. C. & 1257(^)

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
My 6th amendment constitutional right has been violated:

Article [VI] (Amendment 6 - Rights of Accused in Criminal
Prosecutions) - #16CR0126 - VIOLATED
In all criminal prosecutions, the accused shall enjoy the right to a speedy and public trial, by an impartial
jury of the State and district wherein the crime shall have been committed, which district shall have been
previously ascertained by law, and to be informed of the nature and cause of the accusation, to be
confronted with the witnesses against him; to have compulsory process for obtaining witnesses in his
favor, and to have the Assistance of Counsel for his defense.

/ H fe

L-t l't

ckmon*A

ca y'T'l e^\ cl rv\ -e_Vv (

*T * ^' - t
U ) ' rv

Chapter 4513: TRAFFIC LAWS - EQUIPMENT; LOADS #16CR0126 - VIOLATED
As provided in section 4511,01 of the Revised Code, the definitions set forth in that section
apply to this chapter.
•

No highway rule was broken to warrant a pursuit to pull me over

•

Illegal arrest without ticket and without warning

•

Illegal holding in jail

•

3 videos coming from the court show me pulling over safely to the
right

• The officers ask me to provide a statement without reason:

"Did you swerve" I said "NO!" in my statement on March 6th
2016 but they complicate my response by asking me these
questions illegally because this have no evidence to support
their accusation of felony assault.

U.S. Supreme Court
1 1 Street NE
Washington, DC 20543
Statement of the Case
On March 6 2016 I was driving interstate I-76 in Ohio State. I passed by
three (3) officers standing at cross over at 8.6 mile mark they were all
facing one position (West Side) *they were just having a conversation*. I
was driving normally like many other trucks were driving (speed limit *65
moh*. lane *riaht lane*) Me and my vehicle we weren’t driving towards
any violation in the State Of Ohio. I was stopped at I- 71 South Pond
Shoulder-Safe. All three officers came to me all together and detained me.
They didn’t ask me anything they just locked me up. They took me to a
empty small room at where they came from. I didn’t know exactly what was
happening in reality at the place they put me in. They brought me water,
and I was sitting there for a while; and no one told me anything as they
were detaining me and when I arrived to the place. They didn’t bring me
any interpreter that spoke my language or to call any community districts
near me who spoke my language. When I was there for a while, the officer
Sergeant Eleaser Rivera he brought other officers and he had a letter, and
he directed me to write and answer questions. I didn’t know what the letter
meant but he didn’t explain me anything and I barely speak english, it is
Illegal for you to bring someone into somewhere and integrate them. When
I was in the room for a long time, they hid from me that they were watching
their camera; and thats why they found I stopped safely and nothing else.
The Sergeant repeated me the same questions 2 (two) times. When I
answered the first question “no” from my knowledge, (which is very limited
*my english*) You can see that on page #4 - 5 about those questions that he
asked me.
#1 Did you try to forward towards the officers as they were trying to stop
you? I answered “no”.
#2 Did you every try to run those officers off the roadway?
They were basically the same, and they took my Semi-Truck and also
watched their cameras and didn’t find anything. That’s the fact of the case.
That’s what happened and they also didn’t give me no interpreter.

United States Supreme Court
1 1 Street NE
Washington. DC 20543
Case No.

Statement of the Case
Reasons for granting the petition

Notice of Appeal Supreme Court of Ohio Filed June 13, 2018 United State District Court Filed
October 22, 2018. And also 6th Circuit Court in Cincinnati, Ohio filed December 9, 2019 plus all
pictures and road maps, where 3 officers are sitting on the highway I-76 Interstate. 3 officers
they were sitting in mile marker 8.6 cross over. They follow me a jury trial all officers when
they testified and they lied about everything. _Again I am requesting the court to read carefully
and investigate for that hearing September 9, 2016 that Assistant Prosecutor Mr. Scott
Salisbury that hearing he agreed the officers they followed me more miles and they made
illegal stop without reason. Fie agreed that hearing I am responsive person? Fie agreed and he
made it clear I pulled over safely. When he asked the judge to file a brief he answered the
judge if you would like it. That means I don’t know why the judge asked that question because
he is the judge? And then he answered Mr. Salisbury I wasn’t planning on it, Judge. And he
admitted that day he doesn’t have anything else, nothing zero. And he requested the judge to
set it for trial on Monday. That statement is very clear.
,

/

According to my maps, I gave all courts. The report police, 3 officers especially Officer
Richard Bell and Officer Phillip Melicant on March 6, 2016 what they wrote they cheat
the Constitution and the rule for the United States and the people for the United States
and also our country. Totally the report police are false.
When I pulled over safely they don’t ask me any questions. They made an illegal arrest.
They made an illegal arrest without ticket and without warrant or warning.
When they bring me to Post house, they tell me to write a statement without my
knowledge. They don’t tell me my rights and my English is very limited or to tell me if I
need an interpreter to explain to me what they need from me. They took my truck.
They absolutely abuse power without reason. They don’t follow any rules.
Absolutely on March 6, 2016, they violated my civil rights for human rights violation.
According to the transcript Officer Richard Bell he testified they sat in the cross over
half an hour, see page transcript Jury Trial number 394.
Also he testified September 9, 2016, he was sitting downhill by himself only. Downhill
means mile marker 7. See my maps that I gave all courts. Fie testified at jf^^Trial
transcript number 25-29. Fie chose my truck number 5.
Fie testified at Jury Trial see page number transcript 391-413 he choose my truck
was number 3. Fie admits he is lying. See page number transcript 455-460.
Also, Officer Phillip Melicant he testified only video camera only transcript number
506-523. The camera going forward and back every time. And he is laughing crazily
in front of the people. When he is laughing he is putting his hand over his mouth. Why
he laugh? Fie doesn’t have anything and he writes a false police report. This is clear he

•

•

cheats the Constitution. I am requesting to make an investigation for that video inside
the trial please. Also, he testifies another transcript also.
The third Officer Matt Masoor. He came to Jury Trial but he doesn’t come on
September 9, 2016. Also, he uses a system the word snitch I learn myself in prison.
He using that system snitch. He told the people in the Jury the words that I’m not
saying when I pull over safely on March 6, 2016. He came to tell the people a false
statement. Because he working that system for a snitch. He came to help the
Officers that write a false statement for the report police on March 6, 2016 and testify a
false statement. I want to request the court to investigate for that. See pages 472486.
When I pulled over safely on March 6, 2016, they put me inside the car immediately.
Another car came a few minutes after. Officer Celemons inside his car and they locked
it and the car has heat and there is no window at all. It’s very hot. They make a
conversation outside. I’m feeling very thirsty because I came a long way. I’m traveling.
I was almost close to losing my life that time. He came to me later and I requested
him to turn off the heat and bring me a water. My situation is very serious. And I ask
him will you please let me go outside in the grass area to get air. I’m feeling very sick.
He refused me to go outside to get air but he assisted me a little bit. He turned off the
heat and he bring me a water 2 times from my truck. After that the video officers they
delete that half of the video. You cannot see the 2 times he brings me a water from my
truck. They delete that action totally. I tell the lawyer Paul Grant more times. He
cheated me my Constitutional Rights and the Rule that I shared the people and also he
ignored my story. I am requesting the United States Supreme Court to investigate
this video that on March 6, 2016 and all my cases and statements that I wrote
today.

Offal
GV\ 4

Ctott

-iT

({otirnuff

•2?

-fo

;

Reasons for granting the Petition
• The state of Ohio made a violation, they didn’t respond to my motion
and never filed a feedback *Motion 26(B)
• In Effect assistant Counsel, only the judge gave an answer and thats
a violation, the journal entry see May 24 2018
• Richard Bell and officer Phillip Melican; they wrote on March 6 2016 a
false report police
Merits of Underlying Claim
1. Duplicitous Indictment
2. Appellate Counsel Was Ineffective
• Performance prong
• Prejudice prong
• Ineffective assistance in Due process
You can review first hearing made on September 9 2016, also see
transcript pages 53 - 57.

- J-

r

EXPLANATION WHY THIS CASE RAISES A SUBSTANTIAL
UNITED STATES CONSTITUTION ISSUES
"Manifest Injustice" means "a clear and openly unjust act." State ex rel. Schneider
v. Kreiner, 83 Ohio St.3d 203, 208, 1998 Ohio 271, 699 N.E.2d 83 (1998) (citation
omitted); United States v. Luciano, 329 F.3d 1, 5 (1st Cir. 2003) ("Manifest Injustice"
means a "clear and gross injustice."). Manifest injustice relates to some fundamental flaw
in the proceedings which results in a miscarriage of justice or is inconsistent with the
demands of due process. State v. Williams, 10th Dist. Franklin No. 03AP-1214, 2004Ohio-6123,1J5.
“Manifest injustice” define what occurred in this case. Appellant, Jibriil A. Hersi
(“Hersi”) a Somali immigrant, citizen of the United States, and resident of Minnesota was
returning to Minnesota after delivering a load in his semi-truck when Trooper Melicant
and Officer Bell attempted to pull Hersi’s vehicle over for a weight check.
Trooper Melicant and Officer Bell testified Hersi disobeyed their signals to pull
over, and for no reason justiciable reason, attempted to “swerve” his semi-truck at
Trooper Melicant and Officer Bell. Hersi testified that he did not intentionally flee from
the officers and that he [Hersi] did not “swerve” at either officer.
The alleged incidents were captured on Officer Bell’s dash-camera video. The
dash-camera video—the only objective evidence—clearly contradicted Trooper Melicant
and Officer Bell’s testimony that Hersi “swerved” his vehicle towards either officer. The
dash-camera video illustrate Hersi never swerved his vehicle towards either officer.

1

Contrary to Scott v. Harris, 550 U.S. 372, 378-80, 127 S. Ct. 1769, 167 L. Ed. 2d
686 (2007), the jury convicted Hersi.1 Hersi timely appealed, and compounding the error
appellate counsel never alerted the appellate court to the fact the dash-camera video
contradicted the officers testimony. Nor did appellate counsel raise any issue concerning
Hersi’s due process rights being violated because the indictment failed to specify which
alleged “swerve” constituted the basis for the felonious assault.
Hersi timely raised his claim via an Application for Reopening pursuant to App.
R. 26(B). Hersi’s application was denied, and he timely appealed and raises the following
proposition of laws.
Proposition of Law 1: Hersi was deprived effective assistance of appellate
counsel in violation of the Sixth Amendment to the United States
Constitution when appellate counsel failed to raise: “Hersi’s Due Process
rights under the Fourteenth Amendment to the United States Constitution
were violated when the indictment failed to specify which of the two
instances of Hersi’s alleged swerving constituted the basis for the felonious
assault charge.”
I. Law-and-Argument
A. Ineffective Assistance-Of-Appellate-Counsel-CIaim
l.

Standard of Review under Strickland

Ineffective assistance of appellate counsel claims are reviewed under the two-part
test under Strickland v. Washington, 466 U.S. 668, 104 S. Ct. 2052, 80 L. Ed. 2d 674
(1984). Appellate counsel need not raise every non-frivolous clam in order to provide
No reasonable jury could conclude Hersi swerved his vehicle towards Trooper Melicant and Officer
Bell, as both officers testified. While ordinarily a jury would determine whether to credit Trooper
Melicant and Officer Bell’s contrary testimony, "[wjhen opposing parties tell two different stories, one of
which is blatantly contradicted by the record, so that no reasonable jury could believe it, a court should
not adopt that version of the facts. Scott v. Harris, 550 U.S. 372, 380, 127 S. Ct. 1769, 167 L. Ed. 2d 686
(2007).

2

effective assistance, Jalowiec v. Bradshaw, 657 F.3d 293, 321-22 (6th Cir. 2011). The
failure to raise an issue on appeal constitutes ineffective only if there is a reasonable
probability that inclusion of the issue would have changed the outcome of the appeal.
Howard v. Bouchard, 405 F.3d 459, 485 (6th Cir. 2005).
To show ineffective assistance when counsel presents one argument instead of
another, the petitioner must demonstrate that the issue not presented was clearly stronger
than issues that counsel did present. Caver v. Straub, 349 F.3d 340, 348 (6th Cir. 2003)
(quoting Smith v. Robbins, 528 259, 120 S. Ct. 746, 145 L. Ed. 2d 756 (2001)).
In order to determine whether appellate counsel was ineffective, this Court must
first determine whether the claim omitted had merit and a reasonable probability of
success if raised on appeal. Ivory v. Jackson, 509 F.3d 284, 294 (6th Cir. 2007) (“whether
raising the issue might have changed the results of the appeal, in turn, goes to the merits
of the claim itself.”). If this Supreme Court concludes that the omitted claim would have
had a reasonable probability of success, then appellate counsel’s performance was
necessarily prejudicial because it affected the outcome of the appeal. Eagle v. Linahan,
279 F.3d 926, 943 (11th Cir. 2001).
B. Merits of Underlying Claim
1. Duplicitous Indictment
In this case, the State’s failure to specify in the indictment which incident of Hersi
allegedly swerving his truck—i.e., at Officer Bell or Trooper Melicant—constituted
felonious assault thereby resulting in a duplicitous indictment and depriving Hersi of his
right to a unanimous jury verdict and double jeopardy protections.

3

* .

The trial court instructed the jury it could find Hersi guilty of felonious assault
against Officer Bell or Trooper Melicant, however the jury’s verdict form relative to
felonious assault did not state who the victim of the felonious assault—due to the
duplicitous indictment.
In light of the foregoing argument, the indictment was duplicitous and deprived
Hersi of his right to a unanimous jury verdict and double jeopardy protections.
C. Appellate Counsel Was Ineffective
i.

Performance prong

Its undeniable the indictment was duplicitous. Consequently, appellate counsel
should have raised this claim on appeal. The omitted claim was obvious and much
stronger than the claims appellate counsel presented on Hersi’s direct appeal, thus
appellate counsel omitting the “duplicitous indictment claim” cannot be deemed to be a
strategic choice.
Furthermore, the omitted claim was so obviously valid that any competent lawyer
would have raised it. See State v. Jackson, 8th Dist. Cuyahoga No. 95920, 2011-Ohio5920. And, because the omitted issue was clearly valid and subject to reversal, no
conceivable reasonable reasons can be proffered to make appellate counsel’s failure to
pursue the omitted claim reasonable, because the omitted claim, if raised, there is a
reasonable probability the results of Petitioner’s appeal would have been different.
In summary, the omitted claim was obvious from the record, a dead-bang winner,
and clearly stronger than the issues raised by appellate counsel. Therefore, appellate

4

counsel’s failure to raise the omitted claim was objectively unreasonable and deficient
under the first prong of Strickland.
ii.

Prejudice Prong

Had appellate counsel raised the omitted claim on Petitioner’s direct appeal, there
is a reasonable probability the state appellate court would have vacated Petitioner’s
felonious assault conviction. Consequently, appellate counsel’s failure to raise the claim
prejudiced Petitioner. Moreover, had appellate counsel raised the claim Petitioner could
not be retried on the murder charge.
Based on the foregoing argument and authority, Hersi was deprived effective
assistance of appellate counsel in violation of the Sixth Amendment to the United States
Constitution and Mr. Hersi respectfully move this Supreme Court accept jurisdiction over
this proposition of law, vacate Hersi’s felonious assault conviction and order his
immediate discharge.
Proposition of Law 2: Hersi was deprived effective assistance of appellate
counsel in violation of the Sixth Amendment to the United States
Constitution when appellate counsel failed to raise: “Hersi’s felonious
assault conviction was obtained in violation of the Due Process Clause of
the Fourteenth Amendment to the United States Constitution because the
State of Ohio failed to produce sufficient evidence that Hersi ‘caused or
attempted to cause serious physical harm’ to Trooper Melicant or Officer
Bell.”
II. Law-and-Argument
A. Ineffective Assistance-Of-Appeilate-Counsel-Claim
1. Standard of Review under Strickland

5

Ineffective assistance of appellate counsel claims are reviewed under the two-part
test under Strickland v. Washington. Appellate counsel need not raise every non-frivolous
clam in order to provide effective assistance, Jalowiec, 657 F.3d 293, 321-22. The failure
to raise an issue on appeal constitutes ineffective only if there is a reasonable probability
that inclusion of the issue would have changed the outcome of the appeal. Howard, 405
F.3d 459, 485.
To show ineffective assistance when counsel presents one argument instead of
another, the petitioner must demonstrate that the issue not presented was clearly stronger
than issues that counsel did present. Caver, supra. In order to determine whether
appellate counsel was ineffective, this Supreme Court must first determine whether the
claim omitted had merit and a reasonable probability of success if raised on appeal. Ivory
509 F.3d 284, 294. If this Supreme Court concludes that the omitted claim would have
had a reasonable probability of success, then appellate counsel’s performance was
necessarily prejudicial because it affected the outcome of the appeal. Eagle v. Linahan,
279 F.3d 926, 943.
B. Merits of Underlying Claim
1. Clearly Established Federal Law
The Due Process Clause protects the accused against conviction except upon proof
beyond a reasonable doubt of every fact necessary to constitute the crime with which he
is charged. In re Winship, 397 U.S. 358, 364, 90 S. Ct. 1068, 25 L. Ed. 2d 368 (1970).
Viewing the evidence in the light most favorable to the prosecution, this Court
must ask whether "any rational trier of fact could have found the essential elements of the

6

r

crime beyond a reasonable doubt." Jackson v. Virginia, 443 U.S. 307, 319, 99 S. Ct.
2781, 61 L. Ed. 2d 560 (1979). This standard "must be applied with explicit reference to
the substantive elements of the criminal offense as defined by state law." Jackson, 443
U.S. at 324 n.16.
2. The State failed to not present sufficient evidence Hersi
“caused or attempted to cause serious physical harm to
Trooper Melicant or Officer Bell
To sustain a conviction for felonious assault under R.C. 2903.11(A)(2), the State
must prove Hersi, (1) knowingly, (2) caused or attempted to cause physical harm to
another

by means of a deadly weapon or dangerous ordnance. The State failed to

prove Hersi caused or attempted to cause physical harm to another

***

by means of a

deadly weapon or dangerous ordnance to Officer Bell.
As explained at the outset, Trooper Melicant and Officer Bell testified they were
attempting to stop Hersi’s semi-truck for a weight check, when Hersi “swerved” at them.
Hersi testified that he did not “swerve” at either officer. Video footage supports Hersi’s
testimony and clearly contradicts Trooper Melicant and Officer Bell’s account of what
occurred.
The record contains video footage of Trooper Melicant and Officer Bell encounter
with Hersi which shows Hersi did not swerve his vehicle towards either officer. In Scott
v. Harris, 550 U.S. 372, 378, 380-81, 127 S. Ct. 1769, 167 L. Ed. 2d 686 (2007), the
Supreme Court instructed courts to independently watch and take into account such
footage in assessing the credibility of each party's version of the facts. The Supreme Cout
also instructed courts to not accept version of events if it is blatantly contradicted by the

7

evidence.'" Ibid, (refusing to adopt the plaintiffs version of facts when it was "clearly
contradicted]" by the videotape of the events).
Scott require Trooper Melicant and Officer Bell’s testimony and version of the
events be rejected because their testimony is clearly contradicted by videotape. After
disregarding Trooper Melicant and Officer Bell’s its clear there was no evidence to
proving Hersi “caused or attempt caused or attempted to cause physical harm to Officer
Bell *** by means of a deadly weapon or dangerous ordnance.
Based on the foregoing, the State presented insufficient evidence that Hersi
“caused or attempt caused or attempted to cause physical harm to Officer Bell

***

by

means of a deadly weapon or dangerous ordnance.” Accordingly, Hersi’s felonious
assault conviction should be vacated and Hersi immediately discharged.
C. Appellate Counsel Was Ineffective
i.

Performance prong

It is undeniable the jury’s verdict finding Hersi, “caused or attempt caused or
attempted to cause physical harm to Officer Bell

***

by means of a deadly weapon or

dangerous ordnance” was based on insufficient evidence. Consequently, appellate
counsel’s performance was objectively unreasonable because he should have raised this
“insufficient evidence” claim on direct appeal.
The omitted “insufficient evidence” claim was obvious and much stronger than the
claims appellate counsel presented on Hersi’s direct appeal, thus appellate counsel
omitting the “insufficient evidence” claim cannot be deemed to be a strategic choice.

8

Furthermore, the omitted claim was so obviously valid that any competent lawyer would
have raised it.
Because the omitted issue was clearly valid and subject to reversal, no conceivable
reasonable reasons can be proffered to make appellate counsel’s failure to pursue the
omitted claim reasonable, because the omitted claim, if raised, there is a reasonable
probability the results of Hersi’s appeal would have been different.
In summary, the omitted claim was obvious from the record, a dead-bang winner,
and clearly stronger than the issues raised by appellate counsel. Therefore, appellate
counsel’s failure to raise the omitted claim was objectively unreasonable and deficient
under the first prong of Strickland.
ii.

Prejudice Prong

Had appellate counsel raised the omitted claim on Hersi’s direct appeal, there is a
reasonable probability the state appellate court would have vacated Petitioner’s felonious
assault conviction and discharged Hersi. Burks v. United States, 437 U.S. 1,18, (holding,
"the Double Jeopardy Clause precludes a second trial once the reviewing court has found
the evidence legally insufficient" and that "the only 'just' remedy available for that court
is the direction of a judgment of acquittal."); State v. Kareski, 137 Ohio St.3d 92, 2013Ohio-4008, T| 99, 998 N.E.2d 410 (holding that where "there was insufficient evidence
for a conviction, * * * the Double Jeopardy Clauses of the Ohio Constitution and
the United States Constitution bar a retrial," and the proper remedy is to vacate the
conviction).

9

— v-

j~

Consequently, appellate counsel’s failure to raise the claim prejudiced Hersi
because he would have been discharged. Burks, supra., and Kareski, supra.
Based on the foregoing argument and authority, Hersi was deprived effective
assistance of appellate counsel in violation of the Sixth Amendment to the United States
Constitution and Mr. Hersi respectfully move this Supreme Court accept jurisdiction over
this proposition of law, vacate Hersi’s felonious assault conviction and order his
immediate discharge.
CONCLUSION
Based on the foregoing argument and authority, Hersi was deprived effective
assistance of appellate counsel in violation of the Sixth Amendment to the United States
Constitution. Accordingly, Mr. Hersi request this Supreme Court accept jurisdiction over
this appeal and vacate Hersi’s felonious assault conviction and order his immediate
discharge.
Respectfully submitted,
JIBRIIL A. HERSI
Defendant-Appellant.

JIBRIIL A. HERSI
Inmate No. A693-987
Richland Correctional Inst.
1001 Olivesburg Road
Mansfield, Ohio 44901

10

Conclusion
In violation of Constitutional Rights protected by the 4th AmendmentUSA
Chapter 4513: TRAFFIC LAWS - EQUIPMENT; LOADS Case No. #16CR0126 - VIOLATED
As provided in section 4511.01 of the Revised code, the definitions set
forth in that section apply to this chapter.
• No highway rule was broken to warrant a pursuit to pull me
over
• Illegal arrest without ticket and without warning, when I
stopped safely
• Illegal holding in jail
• 3 videos coming from the court show me pulling over safely
to the right
• The officers asked me to provide a statement without
reason
• State of Ohio; I don't have anything against their rules or their
own property. I was just driving in a public highway (I’m not
driving on anv road of the state of Ohio) I was just driving in a
right lane/lnterstate.
• Mv speed limit was at 65 moh.

/o -

